<html>
<title> - GALISTEO BASIN ARCHAEOLOGICAL SITES</title>
<body><pre>[Senate Hearing 107-837]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-837

                  GALISTEO BASIN ARCHAEOLOGICAL SITES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 2776

 TO PROVIDE FOR THE PROTECTION OF ARCHAEOLOGICAL SITES IN THE GALISTEO 
              BASIN IN NEW MEXICO, AND FOR OTHER PURPOSES

                               __________

                             AUGUST 7, 2002

                              SANTA FE, NM


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                -------
84-655              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                David Brooks, Democratic Senior Counsel
                     Nancie Ames, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Dant, Buck, Local Landowner Near Village of Galisteo, NM.........    16
Jenks, Robert, Assistant Commissioner for Surface Resources, New 
  Mexico State Land Office.......................................    18
Lovato, Ernest, Governor of Santo Domingo Pueblo.................     8
Michel, Mark, President, The Archaeological Conservancy..........    11
Quintana, Andrew, Governor of Cochiti Pueblo.....................     7
Romero, Robert, President of La Cienega Valley Association.......    14
Whitley, Richard, Acting State Director-New Mexico, Bureau of 
  Land Management................................................     3

 
                  GALISTEO BASIN ARCHAEOLOGICAL SITES

                              ----------                              


                       WEDNESDAY, AUGUST 7, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                      Santa Fe, NM.
    The committee met, pursuant to notice, at 9 a.m. at the 
Genoveva Chavez Community Center in Santa Fe, NM, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. All right. Let me thank you all for coming 
today. This is a hearing of the Senate Committee on Energy and 
National Resources, and the purpose is to receive testimony 
related to a bill that I have introduced, called S. 2776. This 
is a bill to protect archaeological sites in the Galisteo 
Basin. I thought it was important that we have this hearing 
here in Santa Fe to let those interested in the issue attend 
and participate.
    We will have a second hearing in Washington, at which time 
we will get formal views from the administration on the bill. 
That will probably be sometime in September. S. 2776 authorizes 
the Secretary of the Interior to protect approximately two 
dozen important archaeological sites in the Galisteo Basin 
containing the ruins of pueblos dating back almost 900 years, 
including what I understand are the largest pueblo ruins ever 
found. In addition, many of the designated areas contain 
historic artifacts and sites related to the Spanish 
colonization of the area.
    While the Galisteo Basin sites represent some of the most 
significant archaeological sites in the country, they are also 
spectacular scenic areas and some are virtually unspoiled. 
Because of their proximity to Santa Fe and Albuquerque, 
however, many are now threatened from increased development 
pressures, including increased use of the land, exposure to the 
elements and vandalism.
    Through the protection and interpretation of these sites, 
we have the opportunity to learn more, not only about the 
history and culture of these pueblos, but also about the first 
interaction between the European and Native American cultures. 
The Cochiti and Santo Domingo Pueblos, in particular, are 
culturally and historically tied to these sites, which have a 
tremendous historical and religious significance. We are very 
grateful that we have two Governors here to testify today. 
Governor Quintana, from Cochiti Pueblo, and Governor Lovato, 
from Santo Domingo Pueblo, will both give testimony on the 
second panel.
    Some of the archaeological sites are located on Federal 
land administered by the BLM. We will hear, this morning, from 
the Bureau of Land Management on the research that their 
archaeologists have undertaken on some of these sites. Although 
the BLM will not provide its official testimony until 
September, at the hearing in Washington, I was very pleased 
that the agency supported a similar bill that I introduced to 
the previous Congress, and I hope that they will support S. 
2776.
    Many of the sites identified in the bill are on non-Federal 
land, and I think it might be useful to take a minute and 
explain what the bill does and what it does not do, especially 
with respect to these private lands.
    The bill designates 24 sites in the Galisteo Basin as 
archaeological protection sites. For sites that are located on 
Federal land, it directs the Secretary of the Interior to 
manage the sites in a way that will protect and preserve the 
archaeological resources while also allowing for further 
archaeological research.
    With respect to a site that is located on State, tribal or 
private land, the bill does not give the Secretary any 
management or regulatory authority over those lands. It does 
authorize a landowner to voluntarily enter into a cooperative 
agreement with the Department of the Interior. The terms of the 
agreement are whatever the landowner and the agency would agree 
to. My hope is that the Federal Government will be able to 
provide landowners with assistance in protecting their sites, 
either with technical advice or financial assistance.
    In return, I know that some of the owners are willing to 
allow for some research or public interpretation of the 
resources on their land. This bill authorizes voluntary 
participation in that. Because this can be a sensitive issue, I 
have added language to this year's bill to explicitly state 
that the Secretary of the Interior has no authority to 
administer sites on nonfederal lands, except to the extent 
provided for in a cooperative agreement entered into between 
the Secretary and the landowner.
    Similarly, the bill authorizes the Federal Government to 
purchase a designated site, but only if the landowner is a 
willing seller. I have also added new language to clarify that 
nothing in this bill limits or restricts a tribe from 
protecting cultural or religious sites on tribal lands.
    As most of you know, I introduced a similar bill three 
years ago. That bill did not get enacted. In those three years, 
many irreplaceable archaeological resources have been lost. 
There is very little legislative time left in this Congress, 
but I am hopeful that following today's hearing, we will be 
able to show strong local support so that we can move the bill 
forward through both the House and Senate in the remaining 
weeks.
    We are going to start today with testimony from Mr. Richard 
Whitley, who is the acting New Mexico State director of the 
Bureau of Land Management in the Department of the Interior. I 
understand that he is accompanied by his chief archaeologist, 
and so we will hear their testimony, and I will ask them a few 
questions, and then we will go to the other witnesses.
    Mr. Whitley, thank you for being here.

STATEMENT OF RICHARD WHITLEY, ACTING STATE DIRECTOR-NEW MEXICO, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Whitley. Thank you, Senator. Can you hear me? Is this 
working? I have with me today Steve Fosberg. He is the State 
archaeologist for BLM and has done a lot of work out at the 
Galisteo Basin.
    Thank you for the opportunity to participate in this 
hearing on the protection of archaeological sites in the 
Galisteo Basin in New Mexico. I understand the committee will 
hold a hearing in Washington, D.C., on a later date, at which a 
witness representing the Department of the Interior will be 
invited to provide the committee with the administration's 
views on S. 2776. My statement today will discuss the BLM's 
active work over the past several years to protect 
archaeological resources on public lands in the Galisteo Basin.
    The lands surrounding Santa Fe in the area known as the 
Galisteo Basin contain a rich cultural heritage of national 
significance. The first Spanish explorations in this area found 
thriving Pueblo Indian communities dating back to prehistoric 
times. Today, the ruins of these pueblos commemorate both the 
achievements of the ancestral Pueblo people and the events 
which shaped the early colonial history of New Mexico and the 
Southwest. Other important historical events which have left 
traces on this landscape include the development of the Camino 
Real, the Pueblo Revolt of 1680, the establishment of the Santa 
Fe Trail, a major Civil War battle, the coming of railroads and 
the mining booms of the territorial period.
    Lands to the north of Santa Fe are Pueblo Indian 
reservations, while the lands to the east and the west are 
largely public lands managed by the BLM and the U.S. Forest 
Service. Portions of this land, such as the Pecos Wilderness 
and the La Cienega Area of Critical Environmental Concern, have 
been set aside for special protection. Other areas are managed 
under the principle of multiple use and other laws, such as the 
National Environmental Policy Act and the National Historic 
Preservation Act.
    The southern part of Santa Fe County has a pattern of mixed 
ownership, with private lands predominating. Development of 
this area is proceeding at a rapid pace as the population of 
Santa Fe County continues to grow. Both the State of New Mexico 
and the BLM manage key parcels in this area.
    Natural processes take a toll on the cultural resources, 
but the threats posed by human uses are potentially more 
serious. Vandalism and careless excavations in the prehistoric 
and early historic ruins are a source of great concern to 
modern Pueblo peoples and threaten some of the most important 
archaeological sites with wholesale destruction. Centuries of 
woodcutting and livestock grazing have altered the vegetative 
communities as well as the riparian areas and the watersheds 
that support them. Development of both residential and 
commercial real estate presents risks to the ruins, trails, 
petroglyphs, and other traces of history and prehistory that 
remain in this landscape. Illegal trash dumping and other 
activities of this type have had a serious adverse impact on 
the natural and cultural resource values.
    Of the 24 sites referenced in S. 2776, nine are currently 
managed in whole or in part by the BLM. The other sites are on 
State or private land. BLM archaeologists have done extensive 
research on these sites, and have developed long-standing, 
positive working relationships with the local communities of La 
Cieneguilla and La Cienega Pueblo Indian communities, the 
affected State agencies, the University of New Mexico, and 
local conservation organizations on all aspects of the 
protection of archaeological resources of the Galisteo Basin.
    Through its planning process, the BLM has set aside land 
near La Cienega for special protection in its Resource 
Management Plan. The area encompassed by this plan includes the 
BLM-managed portions of La Cienega Pueblo and Petroglyphs, La 
Cienega Pithouse Village, and La Cieneguilla Petroglyphs. 
Management prescriptions for the BLM sites include grazing 
exclusions, withdrawal from mineral entry, and a no surface 
occupancy stipulation for oil and gas development. These 
management prescriptions were developed by the BLM in 
consultation with Native American tribal governments, State and 
local governments, stakeholders, and the general public, 
through participation opportunities afforded by the land use 
planning and environmental review process.
    The BLM manages additional sites in the Galisteo Basin: 68 
acres of Burnt Corn Pueblo; 40 acres at Petroglyph Hill; 190 
acres at Pueblo Blanco; 70 acres at Pueblo Galisteo/Las Madres; 
and 80 acres at San Lazaro Pueblo, a national historic 
landmark. The BLM's decisions on appropriate uses of the areas 
must take into consideration the impact of approved activities 
on the rich cultural and archaeological resources which are 
present there.
    The BLM's Taos field office has been very involved with 
local government, stakeholders, and interest groups over the 
past several years to improve our resource management efforts 
in the basin. In keeping with Secretary Norton's four Cs: 
consultation, cooperation, communication, all in the service of 
conservation, our goal is the development of a comprehensive 
community-based management program for the Galisteo Basin.
    BLM is working with the Trust for Public Lands, Santa Fe 
County, the county lands commission, and local community groups 
to acquire critical lands within a 5,000-acre green belt, to 
protect its open space and national resource values. The BLM, 
Santa Fe County and the local community have been working 
together to develop a management strategy for the Cerrillos 
Hills, a prehistoric/historic mining district in the west 
central part of the Basin. The BLM plans to continue these 
efforts to protect the cultural resources of the Galisteo 
Basin.
    Thank you again for inviting BLM to participate in this 
field hearing. I will be glad to answer any questions.
    The Chairman. Thank you very much.
    Mr. Fosberg, did you want to make any comments at this 
point?
    Mr. Fosberg. I will just be happy to assist in answering 
any questions.
    The Chairman. Okay. Let me ask, to what extent does the BLM 
pursue its own archaeological research on these sites? Is this 
something that is an ongoing part of your program? As well as 
protecting these sites, do you conduct research to determine 
the significance of them?
    Mr. Fosberg. The Bureau of Land Management forms 
partnerships with universities to cosponsor field schools at 
archaeological sites when those sites are deemed to be 
threatened, either by natural erosion or vandalism, problems of 
that nature. Currently, we are sponsoring a field school at the 
Burnt Corn Pueblo. Dr. James Snead is currently out there, with 
students, conducting mapping and testing of that important 
site. And we have also worked with community groups in the La 
Cieneguilla area to help map and record the impressive rock art 
in that region. So our mode of operation, if you will, is 
generally not to undertake those studies with our own staff, 
per se, but to work in partnership with community groups and 
universities so that that research can take place.
    Unidentified Speaker. Excuse me. Could you speak a little 
louder?
    The Chairman. I think maybe if you could, just hold the 
mike the way I am holding this one. Take it out of that stand, 
and hold it up, and that will help.
    Let me ask another question, and you can try and see if the 
mike works better in response to that question.
    This legislation contemplates cooperative agreements with 
landowners that wish to participate and wish to enter into such 
agreements. Could you give us any idea of how that would work 
if a landowner did want to work with the BLM to protect a site 
that was on private land that that landowner owned? Do you know 
how that would function?
    Mr. Whitley. We at the Bureau of Land Management enter into 
quite a few cooperative agreements in which Federal funds can 
be leveraged to accomplish worthwhile public purposes, but the 
problem that we have with our current authorization in the 
Federal Lands Management Policy Act is that our authority to 
enter into those cooperative agreements is restricted to public 
lands, to the use of funds for public lands. And we have run 
into this problem before; the Chaco and the Outlier Protection 
bill, for example, gave the responsibility to the BLM to work 
with private landowners to encourage their preservation and 
protection, but it was often difficult to come up with a 
mechanism to help underwrite efforts for site monitoring, site 
recording, and so on, on those private lands. So the language 
that I have seen in this bill, which is very explicit, to give 
that authority to work with the private landowners, I think 
would be helpful.
    What I would envision would be the Bureau using some of its 
funds in working with organizations like the State Historic 
Preservation Office, to help establish site stewardship 
programs where we could have more active monitoring of these 
sites, where we could act as a go-between and arrange for 
students and researchers to come out and complete 
archaeological surveys and recordation, and to work with other 
Federal agencies that have expertise in the area of 
stabilization, to see what we could do to arrest erosion and 
decay. So I think the arrangements contemplated in the bill and 
the language would be helpful in that regard.
    The Chairman. Let me also ask, the bill is very explicit as 
to which of the sites the BLM is given authority to work to 
protect, and I think there are 24 of these. Are these the right 
sites? Is this a complete list of the ones that we ought to be 
trying to assist with protection of?
    Mr. Whitley. Our archaeologists have been consulting and 
working with The Archaeological Conservancy on this list, and I 
believe that it is an accurate list that encompasses the 
primary sites known at this time, although there are 
provisions, of course, in the act for additions to that list, 
if we discover additional properties that need to be added.
    One of the properties that was on the original bill 3 years 
ago, I noticed that been removed, but it has since been 
transferred over to----
    Unidentified Speaker. Can we speak a little louder? We 
still cannot hear you.
    Mr. Whitley. Sorry.
    The question was: Is the list of sites in the legislation 
an accurate and complete listing of the primary sites that 
merit protection in the basin? And my response was that I 
believe it is; The Archaeological Conservancy and our staff and 
others have been working to update the list, and it does 
represent the primary pueblos that merit protection and rock 
art sites that merit protection in the basin. There are, of 
course, provisions in the act for additions to that list, which 
is important, because there are discoveries still being made of 
additional important sites.
    One of the pueblos that was in the bill 3 years ago has 
since been removed. That was Toke Pueblo, I think, and that has 
since been transferred to one of the pueblos, so it enjoys 
protection through the administration of the pueblo and there 
is not a need to retain it in this version of the bill, but I 
believe that the list is a comprehensive list based on what we 
know at this time.
    The Chairman. I think we make it very explicit in section 4 
that additions to the list would only be made by statute, by 
congressional action, so if there are additional sites 
identified that the BLM believes ought to be protected, then we 
would have to go back to Congress to make a change.
    All right. Any other points that we need to know about, 
about the BLM view on this? Mr. Whitley, did you have any other 
comments?
    Mr. Whitley. No, Senator.
    The Chairman. All right. Well, we will allow you folks to 
go about your business, and let me call forward the remaining 
witnesses. We have five other witnesses here that I would like 
to give a chance to testify. Governor Quintana from Cochiti 
Pueblo, Governor Lovato from Santo Domingo Pueblo, Mark Michel, 
president of The Archaeological Conservancy, Mr. Robert Romero, 
who is with La Cienega Community Association, and Mr. Buck 
Dant, who is a resident here in Santa Fe. If all of you would 
come up, please, and take a chair, that would be great.
    Let me also ask Bob Jenks--where is Bob? Bob was here. 
Would you like to come up? You are from the State Land Office 
and have some testimony you would like to make. Please come on 
up here. We will just find another chair.
    Let me also announce that Raul Alvillar is here 
representing Congressman Tom Udall's office. Where is Raul? 
Thank you for being here. Congressman Udall is also sponsoring 
this legislation. He has introduced it in the House of 
Representatives, just as I have introduced it in the Senate, 
and we very much appreciate that.
    Why don't we start with our two Governors. Governor 
Quintana, we will start with you down at the end of the table 
there. Thank you very much for being here, and we appreciate 
your willingness to testify. Would you hold that microphone 
there the same way I am holding this one, so that everyone in 
the audience can hear you. Thank you.

           STATEMENT OF ANDREW QUINTANA, GOVERNOR OF 
                         COCHITI PUEBLO

    Governor Quintana. Good morning, Chairman Bingaman. My name 
is Andrew Quintana. I am Governor of the Cochiti Pueblo, and 
good morning, everybody.
    Chairman Bingaman, thank you for providing me the 
opportunity to testify before your committee. We appreciate the 
opportunity to have met with Jill Halverson of your staff on 
June 18, 2002. Ms. Halverson shared with us adiscussion draft 
of proposed legislation to establish a list of Galisteo Basin 
archaeological protection sites.
    The purpose of this bill, as we understand it, is to 
facilitate the protection of archaeological sites in the 
Galisteo Basin of New Mexico. I have reviewed this draft bill 
with the Cochiti Tribal Council on June 19, 2002, and based on 
that review, I am providing testimony to convey the Pueblo de 
Cochiti's strong support for this legislation. Securing 
protection for archaeological sites, and in particular former 
pueblo areas located on private lands in the Galisteo Basin, 
are of great importance to us. The draft legislation calls for 
the Secretary of the Interior to seek voluntary cooperative 
agreements with private owners of the sites to be protected. 
This same approach has been applied in an informal way in 
regards to the old San Marcos Pueblo, and we have already 
contributed $10,000 of our own money to The Archaeological 
Conservancy to help secure protection of this site.
    The draft legislation will make it easier to arrange 
public/private partnerships to secure protection of these sites 
located on private land. Passing this legislation will advance 
important interests of our pueblo and other pueblos in New 
Mexico by improving the ability of the Secretary of the 
Interior to secure that protection.
    We believe the bill would be dramatically strengthened and 
more widespread pueblo support would be generated if additional 
provisions were added: A, to provide that the pueblos will be 
consulted as to maintenance and protection procedures for 
protected pueblo sites and as to identification of new sites; 
B, to ensure pueblo access to protected pueblo sites for 
ceremonial and other traditional purposes; C, to provide that 
the provisions of NAGPRA and ARPA would apply to pueblo sites 
protected under the act just as if they were located on 
existing Federal lands; and D, to add reference to ARPA and 
NAGPRA at section 8(a) of the bill as regards to protected 
pueblo sites.
    We wish to make clear that our support for protecting these 
sites from unauthorized or commercial looting and other 
disturbances or destruction should not be construed as support 
for intentional excavation of human remains or funerary objects 
interred with human remains, even if done for organized 
scientific or archaeological research purposes. Basic respect 
for the deceased requires that they be left alone and promptly 
reburied after consultation with surrounding pueblos if 
inadvertently disinterred.
    If we can provide any further elaboration or explanation of 
why this bill and the recommended revisions is so important to 
us, please do not hesitate to contact us.
    In closing, I want to commend you for the tribal 
consultation process which you have initiated in connection 
with this legislation and for engaging in that consultation 
before you introduce the bill. I also want to commend you for 
giving legislative attention to this important issue.
    Thank you very much, and I will be open to questions.
    The Chairman. Thank you very much, Governor. I appreciate 
your testimony, and I will have a question or comment when we 
finish with all the other witnesses here, but first, let us 
hear from Governor Lovato, the Governor of the Santo Domingo 
Pueblo.

            STATEMENT OF ERNEST LOVATO, GOVERNOR OF 
                      SANTO DOMINGO PUEBLO

    Governor Lovato. The Honorable Senator Bingaman, my name is 
Ernie Lovato, Santo Domingo Pueblo. This is my fourth term as 
Governor of Santo Domingo. Today you are going to hear a 
different voice than ever before in the USA. I am nothing new, 
as you know, Senator. I have been to the Congress, I 
testified--I have a track record in the House and Senate over 
the many years since I lived and raised here in the pueblo 
land. Today you are going to see a new history. You are going 
to find a new history, and I want the historians of this State 
to make this as the true record, for you have now been told the 
truth.
    Today, I come before this committee here, but first of all, 
before I go on with my prepared statement, I am taught to stand 
when I speak, is the reason that I am standing. I have called 
upon my spiritual guides to be with us. They are here today. My 
ancestors are here today, at this moment, hour. This is part of 
your protection by law for our own aboriginal religious-
connected, and so on, so please listen carefully.
    First of all, let me qualify my statement initially. I wish 
you had the opportunity at this legislation, first attempt, 
years ago, Senator introduced. I am sure he did well. 
Apparently, there was not much Indian leadership participate at 
that time. This year, the year 2002, we are here, and I am 
going to make sure that I am going to be with Senator all the 
way through Congress. Let the members of Congress hear from the 
true Americans that were here first.
    This bill, S. 2776, is going to fly through, but they hear 
it from us First Americans, in Congress. That is what needs to 
be done, because who else knows better in America? We. And I 
want to speak for Santo Domingo leadership. I have been around 
long, long time in this State. I have been member of my council 
31 long years. I served the whole State, 19 pueblo governments, 
6 long years. I served in this State very well, all the way 
through Congress. I have a track record. I have been through 
the mill in this State, so I am nothing new to the politics. I 
am nothing new to the bill. I have been there. I testified on 
land recovery projects in my homeland.
    But anyway, I just wanted to let the American people know 
that we are now coming forward. The true facts are facts that 
must be brought up in this area, on the Senate bill that we are 
speaking of today, is nothing new to us. We know the history. 
We know the aboriginal history, the true history before USA, 
before State government, before Spanish encroachment. We should 
be the first and forefront in this whole issue all the way to 
Congress, because we are the true inhabitants by rights of our 
ancestral rights. We walked this terrain when I was a young 
boy.
    As recent as 1980, 1990, when I was involved with land 
investigation for land recovery project for my tribe, illegally 
taken from my people, we saw Galisteo Basin, we saw San Marcos 
Pueblo, we saw La Cienega, we saw the whole area that is 
classified here. We have our own name sites. All of this listed 
here on archaeological sites are Spanish surname sites. I 
respect that, don't get me wrong, but I also know my own 
history, by aboriginal rights and identification of sites. It 
is more than 24 sites, to my knowledge, as a young Indian 
leader. I know my history, because it was taught to us from 
generation on down, and that is very important for 
archaeologists to know, historians to know, members of Congress 
to know, all the way to White House to know. Who else knows 
better, but us first?
    So I just want to set that record straight, so that the 
members of Congress will know exactly who is speaking the truth 
in America in the--in the Galisteo Basin. Anyway, we walked 
that area, so we know the sites. And I am glad that the Senator 
has taken the forward step necessary as an interested Senator. 
I have a high respect for the Senator. I worked with him many, 
many years. He knows that. I am his strong right-hand 
supporter. I support him every election; therefore, I stand 
ready to protect this with him, and I am going to make sure 
this time the Senate pass all the way to the Senate--House and 
Senate, and I am going to be right in there with him, if he 
needs me in Congress, to support this all the way through.
    So I just wanted to let you know that. We know the history. 
We have Indian names, but I cannot publicly tell you that. I 
have many reasons why. So the things that identify here by 
Spanish surname sites is well taken, to some extent; we respect 
that, but we also know we should--we should also come forward 
to protect our interest.
    Every time when someone speaks in New Mexico for 
archaeological sites, burial ground disturbance, we get 
disturbed, too. And I am the one that always fight it. Many of 
you probably know my positions in the past. Whenever there is 
going to dig up or mining, or things of that sort, I take a 
position, strong, forcefully, immediately. So as you can see, 
Santo Domingo Tribe is very strong, very strong, as many of you 
can witness during the August 4 celebration. You saw the 
people, crowd; you saw the cultural collection; you saw the 
religion intact. That is how strong our government of Santo 
Domingo. Yes, we do not have a gaming tribe, but we are strong 
culturally, we are strong religiously, we are strong in 
everything that has to do with the land and earth, and so on.
    Now, at this time, I wanted to read to you a prepared 
statement, and I wanted to thank Senator Jeff Bingaman's staff 
for coming to our Indian land. Remember, I did not say 
``reservation,'' I said ``Indian land.'' That is more 
appropriate. In every speech that I make in Congress, State 
legislature, I say ``Indian land.'' I never say ``Indian 
reservation.'' That doesn't fly with me, the word 
``reservation.'' It is not reservation, it is Indian land, and 
that is true.
    So let me go ahead and read you this prepared statement, 
and I hope this will at least highlight in Congress to make 
sure the Senate is heard properly in Congress.

    The Honorable Jeff Bingaman, U.S. Senate, Washington, DC.

    Dear Senator Bingaman, we are writing in support of the proposed 
legislation regarding--the Galisteo Basin protection legislation that 
was first introduced in 1999 by you and Congressman Udall, and that is 
being reintroduced this year again.
    Santo Domingo Pueblo is one Nation that strongly--has strong 
historic ties to the Galisteo Basin entirely, and many cultural 
resources found there is belonging to us. They include some of the 
largest pueblo ruins in the United States, spectacular rock art, 
mission churches, and early Spanish settlements. The region played a 
key role in the Pueblo Revolt of 1680 and was largely abandoned at the 
time. Both Santa Fe and Albuquerque are expanding into the basin at a 
rapid rate. We are becoming increasingly alarmed by the threats to 
these resources, such as looting, urban development, erosion, and so 
on.
    The cultural resources this legislation seeks to protect are 
located on Federal, State, county, private lands. Sorry, it's got left 
out here. It should say Indian land also. The proposed legislation 
seeks to arrange public/private partnerships to secure the permanent 
protection of these resources. It would facilitate planning and 
interaction between the pueblos and non-native governments and 
landowners with regard to the protection and management of these ruins.
    With all the pressures on the basin, now is the time to act to 
protect these priceless resources. They are an untold part of our 
history and heritage. They are also a vital part of the history of New 
Mexico, the United States, and the world. This legislation deserves the 
support of all New Mexicans, and I encourage every one of you people in 
New Mexico to come forward and strongly support this, and hope that the 
Congress will act quickly to enact it.
    And I, again, certainly as a Governor of this Nation of ours, to 
protect this, and I will take the position strongly in Congress, if I 
need to. There is a way to do this, and I stand ready for you, Senator 
Bingaman, to be with you in Congress all the way through to support 
this, and I want to make sure that this is done.
    So let me repeat again, last, as a prepared statement, please, 
please understand, all of you in America and New Mexico, we were here 
first and we are going to continue to stay here, but from here, forth, 
from now on, anything that involves New Mexico land, I want to make 
sure my Indian people is included in the testimonies. I want to make 
sure that every step of the way, the State, of Nation, that Native 
American be consulted.
    Gladly to say, at least BLM came forward recently, to the 
congressional act several years ago. Now BLM is allowed to interact 
with Indian people in this State for land exchange program, and I want 
to be--gladly, publicly make the statement. Recently we had a land 
exchange program with the BLM people, and I was very glad to do that. 
Now at least we gained some more on the east side of our Indian land. 
Inclusive of that, we are buying some more land over on the west side.
    As you can see, I am here telling the Congress and public and the 
legislature that I will hope the ownership there, Joe Miller and rest 
of you, if you are here, I stand ready to sit with you, talk to you; we 
may work something out. I would like to see that some of that area 
return back to my Indian people. That way it will show the American 
people like you and I will be protected. I can assure you we know how 
to protect the cultural and religious sites. So if that can be 
possible, Senator, I would like to see on the sites some kind of 
negotiation be discussed, at all possible, return back to the site, 
because after all, anyone--there is nobody in the world can argue with 
me. It is our aboriginal inhabitants' home sites.
    San Marcos is good example. I heard the other day, somebody wrote a 
bit in the New Mexican News, that I haven't read, somebody's talking on 
our behalf that we should be the ones telling the people in New Mexico 
that San Marcos Pueblo belonged to my people. We studied that during my 
land investigation, San Marcos Pueblo area. We have four or five tribes 
that live there many years before USA, before Columbus, before Spanish 
government. It is all evidenced across this New Mexico. La Cienega 
area, I have my people live there. The ruins are still there.
    So Senator, I just wanted to make sure that I am here, glad today, 
that you all invited me to come forward. But here on, I want to be out 
there on the forefront, every time there is something come up like 
this, because Santo Domingo is very strong, very strong in this 
situation. We are a very, very conservative Indian Nation, Santo 
Domingo, and we have a strong government. And like I say, I am nothing 
new to this State and Nation. I have gone through the mill. I know what 
I am talking about when it comes to Indian Nation, culture, religion, 
and so on, so I hope the Senator--and I wanted to assure you, Senator, 
I'll be right in there with you all the way, to make sure that this 
time, Senator--and I want to make sure on the Republican side, 
Senator--what is his name, Senator Republican? Domenici. I forgot it 
for a while, but I remembered it.
    I heard that he did not support this initially, way back, Senator. 
This time, I am going to get Senator Domenici getting in side by side 
with Udall, no problem, Heather Wilson, and the rest of the folks. I 
want to make sure that they support, because they are part of the New 
Mexico citizens and they represent all of us, but more importantly, 
Senator, I hope the Congress and I hope both the House and Senate will 
listen to us, and please invite us, Senator. I will protect this for 
you, and you will protect this for us. Together we will go in 
partnership to make sure it is protected.
    Thank you very much for allowing me.

    The Chairman. Thank you. Thank you, Governor. I appreciate 
your strong statements. Our next witness is Mark Michel, 
president of The Archaeological Conservancy. And let me just 
mention, I think what is obvious to everyone who has followed 
this issue is that Mark has been a leader in not only promoting 
protection of these sites, but also in urging that we move 
ahead with legislation of this sort. So thank you very much for 
all your help, Mark.

             STATEMENT OF MARK MICHEL, PRESIDENT, 
                 THE ARCHAEOLOGICAL CONSERVANCY

    Mr. Michel. Thank you, Mr. Chairman, and thank you for 
having me here. I want to especially thank you and Congressman 
Udall for introducing this legislation and sticking with it. 
You know, often time legislation, particularly good 
legislation, takes a long time to get through our process here, 
and I assure you that I will be with you for as long as it 
takes to get it done, and hopefully, we will get it done this 
year.
    I have prepared a written statement for the committee, that 
I would like to summarize for you today. I would like to 
address, first, the significance of the resources, from an 
archaeological point of view, in the Galisteo Basin. These 
resources include the largest pueblo ruins found anywhere in 
the United States, some with up to 2,000 ruins. In fact, 10 of 
these 24 sites have more than 1,200 ruins--surface ruins, and 
just to give you an example, Pueblo Bonito in Chaco Canyon, 
which is a spectacular stone ruin, has 800 ruins, total, on 
five stories, so some of these ruins might have as many as 
5,000 ruins, so many times the size of Pueblo Bonito, and there 
are 10 of these of that massive size, along with a number of 
earlier ones.
    The basin also includes world-class rock art, and over 
here, we have a poster showing an example of some of the rock 
art that is found here. I would hesitate to say that there is 
any better rock art or any better concentration of rock art 
anywhere in the United States than the Galisteo Basin. They 
include some of the earliest--they contain some of the earliest 
European settlements in the United States, dating to 1600, 
where the first Spanish settlers to come into New Mexico were 
established.
    And many of these sites were abandoned at some time or 
another, many of them during the Pueblo Revolt of 1680, some a 
little bit later, and not built over again, so they are 
preserved, and they will give us a very interesting picture, 
snapshot, if you will, of Spanish colonial life in New Mexico 
that cannot be obtained in Santa Fe or Albuquerque, or places 
where the earliest ruins have been destroyed by remodeling and 
rebuilding of the Spanish towns.
    The basin contains at least four of the earliest Roman 
Catholic missions established in the United States, and so it 
is really the birthplace of the Christian Church in the United 
States, and these missions were destroyed during the Pueblo 
Revolt of 1680 and have never been rebuilt, but they are there 
intact. In the last couple of years, archaeologists have been 
excavating the one at Pueblo San Marcos and found fascinating 
things that will tell us much of the early Spanish missions. 
Archbishop Sheehan has been out to visit these, and is very 
impressed, very much interested in seeing them preserved.
    The region is nationally significant and it has attracted 
nationally important archaeologists from all over the country 
in recent years, including people from the American Museum of 
Natural History in New York; George Mason University in 
Arlington, Virginia; University of Chicago; Columbia 
University; and our local Museum of New Mexico and the 
University of New Mexico. All of these people have been working 
in the basin in the last couple of years.
    Recently, the Field Museum of Chicago, the University of 
Colorado, and the University of California at Santa Cruz have 
also been here, so it is attracted national attention.
    S. 2776 would establish a program to protect 24 of these 
sites through public/private partnerships. The bill is 
patterned on the highly successful Chaco and outlier 
legislation of 1980 that has protected 39 outlying villages of 
Chaco Canyon for the last 22 years. As with the Chaco bill, S. 
2776 relies on the cooperation of private landowners, Federal, 
State and county governments, the pueblos and the general 
public. The Secretary of the Interior would enter into 
voluntary cooperative agreements with nonfederal owners to 
assist in protecting the archaeological sites. Public lands 
would receive an enhanced level of protection.
    Since the heart of this legislation is to aid non-Federal 
landowners, I think it would be appropriate to indicate in the 
bill, or perhaps to report, some of the types of aid that would 
be available; in other words, to be more specific, and that 
would include things like fencing and security, erosion 
control, stabilization of ruins, and so forth.
    Thank you again for having me here today, Senator. Thank 
you again for your great leadership on this issue, and as 
Chairman of the committee, we are very honored to have you as 
our Senator.
    [The prepared statement of Mr. Michel follows:]

             Prepared Statement of Mark Michel, President, 
                     The Archaeological Conservancy

    Mr. Chairman, members of the committee. My name is Mark Michel and 
I live in Albuquerque, New Mexico. I am President of The Archaeological 
Conservancy, a non-profit organization formed in 1980 to acquire and 
permanently preserve the most important remaining archaeological sites 
that are located on private land in the United States. We have 
completed about 250 projects in 37 states. We also publish American 
Archaeology magazine and have about 25,000 members. The Galisteo Basin, 
located between Albuquerque and Santa Fe, New Mexico, contains one of 
the largest concentrations of prehistoric and historic ruins found 
anywhere in the United States. These ruins tell a story of at least 700 
years of American history and of the first interaction between Native 
Americans and Europeans.
    Sometime around A.D. 1250, numerous small pueblos in the Galisteo 
Basin of New Mexico, just south of Santa Fe, coalesced into a number of 
very large pueblo villages. New immigrants, perhaps from the collapsing 
centers of Chaco Canyon and Mesa Verde, swelled the towns to 
unprecedented size, including the largest pueblo ruins in the United 
States.
    These pueblos flourished, then dwindled, then disappeared, leaving 
only large ruins of adobe and stone, with millions of shards of pottery 
and thousands of graves. The Spanish called these pueblos Cienega, San 
Cristobal, San Lazaro, Pueblo Blanco, San Marcos, etc.
    We know from Spanish accounts that the Galisteo Basin was a 
thriving community when Coronado arrived in A.D. 1541. Castano de Sosa 
followed in A.D. 1591 and gave Spanish names to the Indian towns. Juan 
de Onate, New Mexico's first governor, visited the Galisteo Basin in 
1598, and noted the decline in the population, perhaps as a result of 
European diseases. Mission churches were established soon after at four 
of the pueblos. These are four of the first Christian churches 
established in the United States. Their ruins are part of this 
legislation.
    In 1680, the Pueblos rose in revolt against the Spanish. Haciendas 
were destroyed, priests were martyred, churches destroyed, and the 
Spanish were forced to flee to El Paso. Santa Fe was occupied by Native 
American warriors. Twelve years later, the Spanish returned under Diego 
de Vargas to find the Galisteo region largely deserted and in ruins. In 
this period, 1540-1692, the destiny of the American Southwest was 
shaped in the Galisteo Basin. Native and European cultures clashed and 
finally came to an accommodation.
    S. 2776 designates 25 Spanish and Native American sites in the 
greater Galisteo Basin as archaeological protection sites and provides 
for their protection through public-private partnerships. These sites 
cover the entire history of the region--from the 2,000 surface rooms of 
Pueblo San Marcos to world class rock art to a one-acre Spanish 
hacienda destroyed in the revolt of 1680. There is nothing like this 
concentration of multi-ethnic sites anywhere else in the United States.
    This incredible resource is under assault from a number of 
directions. Surging arroyos are threatening to wash away major parts of 
many of these sites. At Pueblo Blanco and Pueblo San Marcos, for 
example, erosion has damaged several large portions of the ruins and 
remedial efforts have been only partially effective. Two years ago, a 
flash flood swept down a newly paved county road and came within a foot 
of washing away large parts of the best preserved pre-revolt Spanish 
settlement in the country.
    Sprawling growth from Santa Fe and Albuquerque is also putting 
intense pressure on these ruins. Subdivisions are already in progress 
or planned for several areas of the basin, and land prices are sky-
rocketing. This development is beginning to have a major impact on the 
cultural resources, including trespass, roads to formally remote areas, 
and construction impacts on nearby sites.
    Finally, uncontrolled excavations or looting is a constant threat 
to these irreplaceable resources. Artifacts from these large sites 
bring high prices on the international antiquities market, and 
landowners and managers have an increasingly difficult time stopping 
professional looters.
    S. 2776 would protect these incredible resources through public-
private partnerships. For the past several years the Bureau of Land 
Management has been developing an Area of Critical Environmental 
Concern in the La Cienega part of the basin. They have moved to acquire 
lands and provide additional protection to public lands under their 
jurisdiction. This legislation would strengthen their authority to 
provide protection.
    The bill authorizes the Secretary of the Interior to enter into 
voluntary, cooperative agreements with private landowners to ``protect, 
preserve, maintain, and administer'' their sites. This concept is 
central to legislation adopted in 1980 that protects Chaco culture 
sites in Colorado, Arizona and New Mexico (P.L. 96-550). With twenty-
two years of experience with the Chaco sites, we are confident that 
this concept works well. The sites have been protected and so have the 
rights of private landowners. S. 2776 closely parallels the 1980 
statute.
    S. 2776, like the Chaco outlier law, allows for the voluntary 
acquisition of sites listed in this bill by the Department of the 
Interior. A number of the private owners want these resources to be in 
the public domain and this legislation provides authority for so doing. 
The total area is small, only 4,591 acres at 25 sites, and nearly half 
is already publicly owned. Technical assistance would also be provided 
to landowners that request it.
    We feel the bill would be improved by specifying some of the types 
of aid the Secretary can provide to private landowners under the 
cooperative agreements, like such as aid for fencing, erosion control, 
ruins stabilization, site mapping, monitoring and so forth. Perhaps 
this could be in the committee report if not the bill itself.
    S. 2776 also provides for the development of a general management 
plan for the 25 listed sites in the greater Galisteo Basin. For the 
first time there would be a mechanism to manage the cultural resources 
of the region as a whole. Local, state, and federal governmental units 
as well as private parties would work together to develop a plan for 
the region. The nearby Pueblos would be included. The public at large 
would also have ample opportunity for input.
    The bill designates the Secretary of the Interior as the management 
authority. We feel the bill would be strengthened by designating one 
agency to be in charge. Our experience with the Chaco legislation, 
tells us that if no one agency is placed in charge, it is difficult get 
anything done. The Bureau of Land Management has taken the lead in this 
region, and it would be appropriate to put it in charge of the project.
    The archaeological resources of the greater Galisteo Basin are a 
national treasure. They are outstanding examples of Native American and 
Spanish colonial culture. But more importantly, perhaps, it is here 
that these two great cultures first interacted and helped forge a very 
important part of our American heritage. It was here that the only 
successful Indian revolt against European rule took place. And it was 
here that two cultures learned to live together.
    This is a place of national significance that attracts scholars 
from all over the country. In the past two years, scholars from the 
Museum of New Mexico, University of New Mexico, the American Museum of 
Natural History in New York, the University of Chicago, Columbia 
University, and George Mason University have conducted research at 
various Galisteo sites. The Field Museum of Chicago, University of 
Colorado, and the University of California at Santa Cruz have been here 
recently. More are on their way.
    Since this legislation was first introduced in 1999, New Mexicans 
have rallied to its support--Native Americans, Spanish heritage groups, 
our Archbishop, neighborhood groups, conservationists, the City and 
County of Santa Fe, Sandoval County, and more. Santa Fe County has used 
its open space funds to acquire two of the most endangered sites, and 
they are in the process of acquiring a third. I cannot remember a 
legislative initiative with such a broad range of support.
    We urge the Congress to adopt S. 2776. It will provide a framework 
for the permanent preservation of one of the most important 
archaeological resources in the nation.

    The Chairman. Well, thank you very much. I did not really 
anticipate that endorsement, but thank you very much. Let me 
now turn to Robert Romero who is with the La Cienega Community 
Association, and who gave us an excellent tour of some of the 
sites that are covered in this legislation. What was it, about 
2 years ago now?
    Mr. Romero. Probably.
    The Chairman. It seems about 2 years ago.
    Why don't you go right ahead, Mr. Romero.

           STATEMENT OF ROBERT ROMERO, PRESIDENT OF 
                 LA CIENEGA VALLEY ASSOCIATION

    Mr. Romero. Senator Bingaman, I would like to thank you for 
having us here today. It is really a privilege and a pleasure. 
I rarely speak from a prepared statement. I usually speak from 
my heart, and I will go ahead and continue to do that today, 
and--I am president of the La Cienega Valley Association, which 
represents the community of La Cienega and La Cieneguilla. We 
have recently achieved traditional historical status by State 
designation and by Santa Fe County. I also sit on the County 
Open Lands and Trails Committee. I have sat on that since its 
inception.
    I would also like to express my gratitude to my Native 
American brothers here. My cultural history goes back to when 
Onate first came into this area and my grandfather Bartolo 
Romero, my great, great, great, great grandfather came up here 
with Onate, initially, and eventually we settled here over the 
years, not so much as conquistadors, but as colonists. And I 
can tell you this, the Hispanic culture would not have survived 
or existed here without the assistance of our Native American 
brothers, and we would have very well perished in this land 
without their help.
    And I would like to go ahead and speak from my experience 
in La Cienega. We have worked as a community to preserve some 
significant archaeological sites in La Cieneguilla area, which 
were slated for development: over 350 acres were going to be 
developed out there, and we have since, through the county's 
open lands program and also cooperation with the BLM, have 
acquired those lands for protection.
    And by sitting on the COLTC committee, I have been involved 
in numerous acquisitions throughout the Galisteo Basin. I have 
become quite familiar with some ruins that I have never even 
have known about. I think, right now, we have acquired over 
1,000 acres of property, and our local community has shown 
their commitment to preservation of these sites through their 
continuing to pass bond issues. Our initial bond issue was $12 
million, and it went forward--we had a second bond issue for 8 
million, and now a gross receipts tax initiative was passed to 
allow $1 million annually to come into this program.
    What we are faced with now is the management of these 
properties. We can continue to acquire properties, but without 
management, they will be subject to degradation, further 
degradation, and we really need to focus on that aspect, 
because we can continue to try and acquire these sites and 
protect them from development by acquiring them, but without 
open space surrounding these sites and proper management in 
place, they are still subject to some of the--the possibilities 
that are out there, that may lead to their further degradation.
    We really need to focus on that, and it has got to be a 
consolidated effort. I don't think any one entity alone can do 
this, and we all really need to focus and work together on the 
management of these properties.
    I am also an official site steward of the La Cienega Area 
of Critical and Environmental Concern, and I do coordinate with 
the BLM to allow site visits up to the petroglyph area there in 
La Cienega. We need, also, to bring forward an educational 
process to our young children to make them aware of the 
importance of these sites, as well, because if we do not 
educate, our past would be long forgotten, and we really need 
to focus on education and getting our children more involved 
with our history and our culture. Without that, I don't think 
we stand a chance to really preserve anything that is left 
here.
    I have been active in fighting development as it has come 
into our community, but the reality of the situation is that 
you can only fight so hard, because our Government allows for 
private property rights to be protected and people to have a 
right to develop their land, as such. But without that 
educational process, how can we expect developers to respect 
these sites? And how can we, without providing an avenue for 
them to be involved, how can we expect them to be involved, as 
well?
    So we need to really, really coordinate, not just with our 
government--with our local government, but our Federal 
Government, our State government. We need to really consolidate 
this effort into a holistic effort and bring forward the 
private property owners and the developers, as well, into this 
process.
    And you know, money shouldn't be the issue here, but it is, 
and we really need to focus on the getting the funds necessary 
to continue to acquire these properties when they become 
available, because the timing is a key issue. It is here one 
day and gone the next, and we really need to focus on having 
that funding available when it is needed, and the management 
available, also, to steward these properties once they are 
acquired--or should I say these sacred sites, rather than 
properties, as they may be considered by developers.
    I am going to keep it short, and I will stand for any 
questions when we are through with the presentation here. Thank 
you for having me.
    The Chairman. Thank you very much. I appreciate your 
testimony and your help with the effort we have been making.
    Mr. Buck Dant is here to testify. Thank you, and we 
appreciate you coming very much.

    STATEMENT OF BUCK DANT, LOCAL LANDOWNER NEAR VILLAGE OF 
                          GALISTEO, NM

    Mr. Dant. Thank you, Senator. Good morning, ladies and 
gentlemen. My name is Buck Dant, and I am a landowner on County 
Road 42 between Highway 14 and the village of Galisteo. I have 
been a resident of New Mexico since 1965 and have lived in this 
area since 1980.
    In 1998, I purchased a tract of land which contains 
prehistoric Native American cultural sites, and most 
significantly, approximately one half of a pueblo ruin known as 
Burnt Corn, which was mysteriously burned and abandoned around 
1250 A.D. Prior to the time of my purchase of this property, 
the plan was for the land to be subdivided and sold off in lots 
for residential development. Although I respect the legal 
rights of landowners to develop their property, it became 
apparent that there was other value to the land that 
transcended financial speculation. Fortunately, the owners were 
willing to sell the property in its existing condition.
    The impact of what I had done came shortly after the 
purchase. I knew next to nothing about the history or 
archaeology of the Galisteo Basin. I had little idea what I had 
become the owner of. I was even afraid to walk on the land 
where the pueblo was, for fear of disturbing intelligence I 
knew nothing about. I felt that the whole thing was much bigger 
than I am, and perhaps, I had bitten off more than I could 
chew; however, the responsibility for protection was 
instinctive.
    The other half of the Burnt Corn Pueblo is on land owned by 
the Bureau of Land Management, an organization about which I 
admittedly had dubious thoughts. There is no fence dividing our 
properties, but I imagined a division much more portentous in 
the emerging mission to protect the pueblo and the land around 
it from further intrusions.
    Through the eyes of a few helpful and dedicated 
archaeologists, I was able to understand the unique 
significance and importance of the Burnt Corn Pueblo and why it 
is so special, but I also learned about the dark side of 
looting and destruction that has taken a heavy toll and caused 
irreparable damage, denying future generations valuable 
knowledge about the physical, social and spiritual heritage of 
these First Americans, and I am sad to say that this activity 
is still continuing today.
    Above all others, I would like to acknowledge and honor Mr. 
Paul Williams, the BLM archaeologist from the Taos field 
office, which has local jurisdiction over this area. His 
personal commitment and devotion to protecting these sites with 
the highest integrity and sensibility is exemplary and should 
be commended. Even to a skeptic such as myself, a bridge of 
trust and respect has been built between a wary landowner and a 
huge Government agency; a highly capable and caring face has 
replaced a faceless bureaucracy.
    Since 1998, this tract of BLM land, approximately 2,000 
acres, has moved from the disposal list to a heightened 
priority, and recently new sites have been identified on the 
BLM and private lands in the proximity of Burnt Corn Pueblo. 
Fortunately, these sites have not been looted or disturbed and 
can still be protected intact. The trust and relationship that 
has built up between myself and Mr. Williams, and by extension, 
the BLM, will help ensure further protection for the remains of 
Burnt Corn Pueblo in the foreseeable future.
    Change is coming at an accelerated pace, and a friendly 
chat and a handshake will not be enough to safeguard sites like 
this from the dynamics of a rapidly changing landscape. 
Speaking from personal experience, the personal experience 
being the steward of an important piece of history such as 
Burnt Corn is an awesome and sacred responsibility. It requires 
a sustained vigilance of time and resources and knowledge that 
I don't always have. I have no illusions that I own a part of 
Burnt Corn Pueblo, only that I am a caretaker until, one day, 
the pueblo will hopefully be reunited under one guardian and 
protected in a way that gives this venerable site the respect 
it deserves.
    In my opinion, any group or individual who legally controls 
land on which there are historic and prehistoric cultural sites 
has a moral responsibility to safeguard them from any risk or 
harmful trespass.
    Finally, protecting and saving the archaeological sites in 
the Galisteo Basin is not only the culturally correct thing to 
do, but also politically popular. When Santa Fe County voters 
were first presented with a referendum, in 1998, to approve 
general obligation bonds for acquisition of open space, they 
overwhelmingly endorsed the measure by 65 percent, and again, 
by a higher 69.8 percent, in the 2000 election. Clearly, 
interest is rising, and these were bipartisan mandates. Some of 
these acquisitions and proposals, such as Lamy Junction, 
contain the historic and prehistoric sites in the Galisteo 
Basin, reflecting the value of these precious resources from 
the perception of Santa Fe County voters.
    Thank you for your time.
    The Chairman. Thank you very much for your testimony.
    And our final witness this morning is Bob Jenks, who is 
here representing the State Land Office, and we appreciate you 
being here and your willingness to testify. Go right ahead.

 STATEMENT OF ROBERT JENKS, ASSISTANT COMMISSIONER FOR SURFACE 
            RESOURCES, NEW MEXICO STATE LAND OFFICE

    Mr. Jenks. Thank you, Mr. Chairman.
    Mr. Chairman, I am assistant commissioner for surface 
resources at the New Mexico State Land Office, and on behalf of 
the commissioner of public lands, Ray Powell, I want to express 
our appreciation for the opportunity to speak to you today 
concerning the proposed Galisteo Basin Archaeological 
Protection Act. We sincerely appreciate and applaud the 
initiative you have taken to identify a positive process for 
protecting some of New Mexico's most precious links to its 
past.
    Prior to and upon statehood, Congress granted to New Mexico 
approximately 13 million acres of State trust land for the 
benefit of public institutions such as our public schools. 
These lands are managed by the State Land Office to generate 
revenue that provides critical economic support for these 
institutions. Due to the fact that State trust lands are 
located throughout New Mexico, these lands also hold a wealth 
of cultural and natural resources. Recognizing this, the State 
Land Office views its responsibility to not only manage these 
lands to optimize today's economic benefit, but also to 
perpetuate and protect for future generations the legacy left 
by our predecessors.
    The New Mexico State Land Office, for the last several 
years, has made great strides in our effort to better 
understand the myriad of natural and cultural resources located 
on State trust land. With the support and assistance of many 
local, State and Federal agency partners, such as the Bureau of 
Land Management, and private entities, we have made much 
progress. With that information and support we have embarked on 
numerous initiatives to conserve cultural resources located 
throughout the State. Recent prospects include the 
stabilization of centuries-old sites that are at risk due to 
the rigors of time and human visitation. And in fact, next 
week, we will be implementing protective measures at the Folsum 
site in northeastern New Mexico, a location of nationally 
significant research and educational value. These efforts have 
been successful, in large measure, due to the cooperation of 
our lessees, agencies and private organizations.
    There are several thousand acres of State trust land in the 
Galisteo Basin. In this area, we are fortunate to have the 
archaeological site Pueblo Blanco, situated primarily on State 
trust land. Pueblo Blanco is identified in the Galisteo Basin 
Archaeological Protect Act, as well. Pueblo Blanco is a very 
large stone masonry ruin, which contains an estimated 1,450 
rooms in 16-room blocks, with seven or eight plazas located 
around it. In fact, the photograph located over there, the one 
farthest to your right, is that of Pueblo Blanco. As with many 
other sites in the Basin, evidence suggests this particular 
site was occupied--it is estimated that it was occupied between 
the 1400's and 1600's.
    The significance of Pueblo Blanco, from a research 
perspective, lies in its large information potential regarding 
the subsistence, climate and cultural dynamics between the 
Native Americans and Spanish explorers. There were limited 
excavations in the early 1900's, but the majority of the site 
remains buried and untouched. As with many locations, erosion 
is a threat to the stability and integrity of this particular 
site. In response, a few years ago, the State Land Office 
implemented remedial measures that arrested the immediate 
erosion threats, but nonetheless, there are still opportunities 
for us to do more work out there.
    The Galisteo Basin Archeological Protection Act presents 
welcome opportunities to protect and conserve irreplaceable 
archaeological treasures such as Pueblo Blanco. Our experience 
has been that the most successful projects are those that 
involve partners and collaboration. The act will provide a 
means for interested parties to work together and accomplish 
goals that otherwise might not be attainable. It stipulates 
that the Department of the Interior will consult with the 
commissioner of public lands through the development of a 
general management plan, and we look forward to working with 
them to do that.
    It also provides that any involvement of non-Federal lands 
would be voluntary. We believe that this provision will 
actually provide or serve as an incentive to conserve cultural 
resources in the basin. The State Land Office views the 
provision for the development of cooperative agreements as a 
practicable method for dealing with management issues best 
addressed through collaboration.
    Lastly, the bill provides that should the State Land Office 
and the Department of the Interior, if they should agree, may 
exchange land to provide for the protection of archaeological 
sites, which provides flexibility for those circumstances where 
this may be the best alternative. The State Land Office views 
the Galisteo Basin Archaeological Protection Act as a 
constructive approach to providing alternatives for dealing 
with complex issues.
    We truly appreciate the efforts you have made, Senator, to 
protect New Mexico's rich cultural heritage and we also 
appreciate the willingness of you and your staff to work with 
us to better understand and incorporate provisions recognizing 
the unique responsibilities of the State Land Office.
    Thank you very much.
    The Chairman. Thank you very much, and let me particularly 
thank our State Land Commissioner, Ray Powell, for his support, 
his cooperation and his suggestions on how to improve this 
bill, which we certainly have taken to heart.
    Let me also just respond now. Governor Quintana, you had 
indicated several suggestions, which we want to study in 
greater detail. However, we did include some revisions in here, 
which I hope will address some of your concerns. We have a 
section--in section 9, and subparagraph 4 of that, which says 
that nothing in the act will be construed to restrict or limit 
tribes from protecting cultural or religious sites on tribal 
lands, so we are trying to ensure that that is clear in the 
law.
    It is also my understanding that the two acts you referred 
to, the Archaeological Resources Protection Act, that is ARPA, 
and NAGPRA, which is the Native American Graves Protection and 
Repatriation Act, already apply on pueblo lands, but we will 
certainly study that and try to be sure that that is the case. 
But that is an extra point that you made.
    Governor Lovato, we appreciate your strong statement and 
look forward to working with you, as well, as we try to move 
forward here.
    Let me ask Mark Michel, your organization, The 
Archaeological Conservancy, has spent a great deal of time and 
money in an effort to protect some of these sites already. What 
do you see as the benefit of this legislation if it goes 
forward? Do you believe that the BLM will be in a better 
position to assist you in further acts to protect some of these 
sites? Is that the main motivation for your support of this 
legislation?
    Mr. Michel. I wouldn't say it is the main motivation. I 
think that as a small nonprofit organization, our ability to 
protect the sites of this size and magnitude is limited. We 
have most--one of the big sites that we own, we have another 80 
acres at Pueblo Blanco, and that's just parts of two of the 24 
sites, so I think, for a private organization, it is difficult 
to protect the whole thing.
    I think the real heart of this legislation is the 
cooperative agreements, Mr. Chairman, where the Department of 
the Interior, with its resources and, hopefully, some 
appropriations and its expertise, can help private landowners 
to voluntarily protect these sites, and that kind of help comes 
in the way of expertise in stabilization. It comes in the way 
of expertise in erosion control, which is a really big issue 
out here. If you look at these photographs that we have here, 
almost every single one of these sites is being damaged by 
arroyo cutting, so I think that those are the key things that 
we are looking for here.
    The other thing I think, is that your initiative, Senator, 
has sparked all kinds of other people to get involved in trying 
to protect archaeological sites in the Galisteo Basin already, 
and I want to particularly point to the county of Santa Fe, 
that has already acquired two of these in the last 2 years, and 
is in the process of acquiring one more, using its bond issue, 
publicly voted bond issue, open space bonds, and so--they are 
looking for help in managing these sites. They have no 
resources whatsoever for managing archaeological sites, so they 
are looking for help in managing these, as well.
    The Chairman. Let me also ask, there has been some 
suggestion that there continue to be threats due to looting of 
these sites, even at the present time and in recent years. Is 
that your impression? I mean, is this legislation something 
that needs to be passed in the near future, rather than the 
distant future?
    Mr. Michel. Yes, I think that the threat is increasing with 
every year that goes by. Just in the last--since the last time 
we had a hearing on this, we have had several incidents of 
looting that I am aware of in the basin, because there's more 
people around. There's more things around, but there's also a 
lot more development.
    I mean, these sites--and if you go out there today, as you 
know, Senator, compared to 10 years ago, you see subdivisions 
all over the place, and development going on all over the 
place, and the price of land is skyrocketing, and so, what I am 
suggesting is that maybe it is not an imminent crisis for most 
of these at this time, but why don't we get ahead of the curve 
a little bit before the bulldozers are at the door, and save a 
little taxpayer money and try to protect these things before 
the bulldozers are at the door for a change?
    The Chairman. All right. Thank you very much.
    Mr. Romero, let me ask you about your suggestion regarding 
the need for better education, public education, about the 
importance of some of these sites and the importance of 
protecting them. Are you aware of any formal programs to do 
this at the current time? Is there anything you are aware of 
that either your organization or any of the other organizations 
you deal with are engaged in along these lines?
    Mr. Romero. Right now, at the present time, it is very 
limited. There are some educational initiatives being taken on. 
There are some field trips being conducted in the public 
schools, out to La Cieneguilla, to make aware to the children 
that there are these sites that are in need of protection. I 
think it is very important to educate our children, at an early 
age, of the significance of these sites. Not only do they hold 
history on the part of the Native Americans, but also on--as 
Mark had mentioned, also in the Spanish colonial period.
    You know, our children are going to be our future 
developers, our future archaeologists, our future--they are our 
future. And I think if we start this process of emphasizing 
education, I think there will be more awareness in the future 
as the pressures continue to occur, and there will be more 
sensitivity to it. I really feel that education is ultimately 
going to be the saving grace of these sites. And we are talking 
about Galisteo Basin here, but if you go throughout New Mexico, 
there's numerous sites that have yet to be encroached upon, but 
as development occurs, as I have seen in my 37 years of living 
here in New Mexico and in the local area here, development has 
occurred beyond my wildest beliefs.
    I never thought that my small community of La Cienega would 
be on the verge of becoming part of the city of Santa Fe, and 
that is one of the reasons why we went for traditional historic 
preservation, was to try to protect our identity and some of 
the heritages that are there in our village. And we did this 
through education, you know, to educate our representatives 
there at the county level to grant us this designation, and at 
the State level, as well.
    The Chairman. All right. Thank you very much.
    Mr. Dant, you obviously have a strong commitment to the 
protection of sites on the land you own and other sites as 
well. Is your view on this shared by other landowners in this 
area, as you understand it, or are you the exception?
    Mr. Dant. That is a bit difficult for me to answer, because 
I do not know of any other landowners specifically that are in 
my position. I would say that in speaking to the adjacent 
landowners, they are certainly aware of what's going on. I 
agree with Mr. Romero. I think education is a very important 
component here. I think that these sites could be much more 
publicized, which kind of opens the door for people coming who, 
perhaps, could injure the sites in some way. So I think there 
has to be a lot of thought given to how this is done in terms 
of public awareness and opening these sites to research and 
invitation.
    As far as the other landowners, I think it is just a matter 
of working on the ground level, community involvement, and 
trying to, you know, get people to be, first, aware, and then, 
perhaps, enthusiastic, and then, perhaps, to participate in the 
protection of these sites.
    The Chairman. Okay. Well, thank you very much for your 
testimony.
    Yes, Governor Lovato, go ahead.
    Mr. Lovato. I would like to make a strong recommendation to 
you, as the chairman of the managing committee, there's several 
things that need to be done that no one has done. One is the 
enforcement. Yes, we have all kinds of Senators, Congress 
enacting some of the protection laws such as Native American 
protection laws, and so on, but I don't see anyone out there in 
the Federal Government really, truly enforcing it. There's 
still a lot of looting going on, there's still a lot of damages 
going on, there's still a lot of digging going on. And no one 
seems to be doing the prosecuting. That is my contention right 
now, so I would like to see that enforcement being made in 
order to do that.
    See, Senator, I do not want to go home today empty look in 
hand. I am not that way. When I go to Congress, I want to come 
home with something concrete that I can tell my people, ``Your 
people are going to be protected, your ancestry rights.'' I do 
not want to go home back today empty looking, Senator. I want 
to recommend that to you strongly, that we get some kind of 
enforcement going in terms of education.
    The comment made here by brother Robert Romero pointed out 
is well taken. If anybody is well qualified in New Mexico for 
teacher of youngsters, multicultural, Hispanic, Indian, and so 
many people in New Mexico, to teach what is cultural relevant. 
There is significant area sites, you have got to have a 
multicultural involvement to do public education. I do not see 
no one in New Mexico's qualified to do public education only 
that because it takes a strong feeling from my heart. Right 
now, I am sitting here wondering if anybody was to teach your 
youngsters, multicultural students, is going to have to be 
people like our American Indian people and my brothers of 
Hispanic race because they came to settle. They know the 
feeling.
    American Indians, when they lived here before USA, we know 
that they left behind many things, and I am suggesting another 
thing, Senator, not only the Galisteo Basin should be addressed 
at the national level in Congress. I would like to see or take 
a strong position in reference to the San Marcos Pueblo area. I 
heard somebody came out with the news the other day in The New 
Mexican. I haven't read it. I am going to take a strong 
position on that San Marcos Pueblo because nobody consulted my 
people, and yet, I have a five or six ancestry claimship on. My 
pueblo live there long before Spanish encroachment, long before 
United States, and we walked that terrain in that San Marcos 
Pueblo. We know the history.
    I have more than Ph.D. when it comes to history of New 
Mexico land, so no one in the audience could ever tell me I am 
not educated. I have been educated from the time immemorial, as 
young as I am. So I have all this way of that qualification, 
Senator, but I do want to leave with this substance, like I 
said, I do not want to go home empty, Senator, and you know me. 
I am nothing lightly taken by Congress. I have been there. And 
so I wanted to assure the public of New Mexico that we be 
inclusive every step of the way, public education, walking 
through the sites, and please do not leave us out all the way 
through Congress, if we are going to pass this. Because I am 
going to be the first to be heard in Congress if my people are 
bypassed in Congress, and I am going to take the strong 
position in Congress when the time is right.
    So anyway, those suggestions, public education is well 
taken by multicultural understanding, presentation, and 
management skills. I want my Indian people to be inclusive in 
the management. How can anybody manage that area with the 
absence of Indian people? No one is qualified to do that. So 
you need to be inclusive of multicultural people, get the 
Federal dollars. Let's go support one another. Let's be 
inclusive of multicultural and preserve that area and manage 
those areas equally. Those are the things that I am more 
interested in.
    Like I said, I do not want to go home empty, because I 
have--I have gone through this kind of business before, and 
usually, I find myself on the site and someone else doing 
talking for my people. Those property over there, burial 
grounds, San Marcos, the Lamy area, La Cienega, those are my 
people's property. They are mine. My people's ancestral 
property. No one has a right to take out and display in 
archaeological museum. That is not right for display. Those are 
our spiritual connected, so we have got to protect that.
    So I hope we can understand this, Senator, and all of you 
out there in the public, let's get together and really, really 
come together to understand this, share the values and really 
enforce those laws and protect. So Senator, again, I hate to 
sound this way, but I am very--I get pretty keyed up when 
somebody speaks on my behalf where they do not even know the 
history of themselves, so I want to qualify that for my record. 
Thank you.
    The Chairman. Well, thank you very much. Let me just thank 
all the witnesses. If anyone in the audience wishes to make a 
statement on the legislation or put in a statement for the 
record, we will be glad to include that, and review that before 
we move ahead. We ask that you get that to us within the next 2 
weeks. You can send it to my office over on Marcy Street, here 
in Santa Fe, or to our office in Washington. Either way, we 
will be glad to receive it and include it in the record. You 
can state your views for or against the legislation and for or 
against any particular changes of the legislation.
    Well, again, thank you all very much for testifying, and we 
have had a good----
    Yes, ma'am.
    Unidentified Speaker. Can I ask Governor Lovato, are the 
young people who you are alluding to, there, are any of them 
really learning how to teach?
    Mr. Lovato. In public schools?
    Unidentified Speaker. Not necessarily public schools, but 
you know, about your heritage.
    Mr. Lovato. I don't worry about my cultural youths and the 
cultural--my religion. My young people, from the time of birth, 
are taught at home. Santo Domingo is strong, young kids. They 
are taught the history in their own native tongue, so there is 
no reason for anyone to worry. We know how to preserve. We are 
teaching our people how to protect. I am not sure if that is 
your question.
    The Chairman. All right. Well, why don't we terminate the 
hearing, and we appreciate all of you coming very much. Thank 
you.
    [Whereupon, at 10:24 a.m., the hearing was adjourned.]


</pre></body></html>
